Audit Report



Return
    to the USDOJ/OIG Home Page




Use of Equitable Sharing Revenues by the New Braunfels, Texas, Police Department

Report No. GR-80-04-001


December 2003
Office of the Inspector General


Executive Summary





The U.S. Department of Justice (DOJ), Office of the Inspector General, Audit Division, has completed an audit of the use of DOJ equitable sharing revenues by the New Braunfels, Texas, Police Department (Police Department).  Equitable sharing revenues represent a share of the proceeds from the forfeiture of assets seized in the course of certain criminal investigations.1   During the period of July 1, 2001, through April 30, 2003, the Police Department was awarded DOJ equitable sharing revenues totaling $401,675 and property valued at $4,800 to support law enforcement operations.
We reviewed the Police Department's compliance with six essential equitable sharing guidelines and found that the Police Department generally complied with the guidelines.  However, we found weaknesses in three areas as identified below.

The Police Department did not submit the required Federal Sharing Agreement and did not submit the Annual Certification Report for FY 2002 within the required time frame; also, the Annual Certification Report was not accurate.


The Police Department did not establish internal procedures, independent of the City of New Braunfels' (the City) accounting records, to monitor sharing requests, decisions, receipt of proceeds and property, and expenditures of equitable sharing funds.


The Police Department did not maintain its own inventory of equitably shared property and assets purchased with equitable sharing revenues.

The results of our work are discussed in greater detail in the Findings and Recommendations section of the report.  The audit objectives, scope, and methodology appear in Appendix I.


Footnotes

The DOJ asset forfeiture program has three primary goals:  1) to punish and deter criminal activity by depriving criminals of property used or acquired through illegal activities; 2) to enhance cooperation among foreign, federal, state, and local law enforcement agencies through equitable sharing of assets recovered through this program; and, as a by-product, 3) to produce revenues to enhance forfeitures and strengthen law enforcement.